OFFICE OF THE DISTRICT ATTORNEY
Fourth Judicial District
105 East Vermijo
Colorado Springs, CO 80903

Daniel H. May
District Attorney

ADMINISTRATION
(719) 520-6000 \ FAX (719) 520-6211

Kim L. Kitchen
Assistant District Attorney

July 24, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Marcus Lee Robinson v. Colorado, No. 19-1218
Dear Mr. Harris:
On June 22, 2020, the Court granted our request to extend the filing deadline
for a response to Mr. Robinson’s petition for a writ of certiorari to July 27, 2020.
We now respectfully request, under Rule 30.4 of the Rules of this Court, a second
extension of time through Monday, August 24, 2020, within which to file a
response.
A second extension is necessary because undersigned counsel needs
additional time to research issues related to the federal question that petitioner
claims this case presents, as well as a matter related to the sufficiency of the
appellate record. In addition, counsel’s other cases continue to raise novel legal
issues related to the ongoing pandemic that require his attention on a regular basis.
Sincerely,

Doyle Baker
Senior Deputy District Attorney

cc: Stuart Banner, Counsel for Marcus Lee Robinson

